TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                Collection Actions on Abusive Tax Avoidance
                 Transaction Cases Are Generally Effective,
                   but Measures to Evaluate Performance
                            Results Are Needed



                                           June 19, 2009

                              Reference Number: 2009-30-092




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.



 Phone Number | 202-622-6500
 Email Address | inquiries@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                                DEPARTMENT OF THE TREASURY
                                                     WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                                June 19, 2009


 MEMORANDUM FOR COMMISSIONER, SMALL BUSINESS/SELF-EMPLOYED
                DIVISION

 FROM:                           Michael R. Phillips
                                 Deputy Inspector General for Audit

 SUBJECT:                        Final Audit Report – Collection Actions on Abusive Tax Avoidance
                                 Transaction Cases Are Generally Effective, but Measures to Evaluate
                                 Performance Results Are Needed (Audit # 200830021)

 This report presents the results of our review to determine whether the Small Business/
 Self-Employed Division Abusive Tax Avoidance Transaction (ATAT) Collection Program
 (hereafter referred to as the ATAT Collection Program or the Program) effectively and
 efficiently collects tax assessments and penalties imposed against promoters and/or participants
 of ATATs.1 This audit was included as part of our Fiscal Year 2008 Annual Audit Plan under
 the major management challenge of Tax Compliance Initiatives.

 Impact on the Taxpayer
 ATATs are transactions or schemes that reduce tax liability by taking a tax position that is not
 supported by the Internal Revenue Code or by manipulating the law in a way that is not
 consistent with its intent. While the Internal Revenue Service (IRS) ATAT Collection Program
 effectively pursued the collection of penalty and tax assessments, it did not have appropriate
 measures available to provide an overall assessment of the Program’s results. Without measures,
 the IRS cannot effectively communicate and educate taxpayers about the success of IRS
 collection activities taken to stop the use of abusive transactions.




 1
     See Appendix IV for a glossary of terms.
               Collection Actions on Abusive Tax Avoidance Transaction Cases
                Are Generally Effective, but Measures to Evaluate Performance
                                      Results Are Needed



Synopsis
As part of the overall strategy to deter abusive tax transactions, the IRS implemented the
Program to provide collection support during promoter investigations and to aggressively pursue
collection of penalties and additional tax assessments made in relation to abusive transactions.
The Collection function’s role in the IRS’ ATAT strategy is to promote future compliance of tax
laws, help to ensure collectibility issues are addressed upfront in promoter investigations, and
take collection enforcement actions as early as allowable by law.
Our review showed that the Program effectively pursued the collection of penalty and tax
assessments. In addition, the Program provided collection support to the Examination function
and other functions during promoter investigations, identified and assigned high-priority ATAT
promoter and participant cases, and generally complied with quality and timeliness standards.
However, the Program does not have appropriate measures available to provide an overall
assessment of the Program’s results. Instead, the Program has inventory indicators in place that
are used in evaluating staffing resources needed. These indicators include the number of cases in
inventory, the number of direct staff hours expended, and the number of case dispositions.
However, these indicators do not measure overall success. Without measures to determine the
success of its activities, the IRS cannot effectively determine whether the Program is achieving
desired results, make appropriate changes to it if necessary, or communicate and educate the
public on the success of IRS collection activities taken to stop the use of abusive transactions.

Recommendation
We recommended that the Director, Collection, Small Business/Self-Employed Division, ensure
that program performance measures are developed to measure the success of the ATAT
Collection Program.

Response
IRS management agreed with our recommendation. The Director, Collection Policy, Small
Business/Self-Employed Division, and the Director, Planning and Analysis, Small Business/
Self-Employed Division, will collaborate to identify appropriate ATAT Collection Program
outcome measures that can be segregated from existing data collection programs. They will also
identify Collection function ATAT-specific results measures and explore means to collect them.
Management’s complete response to the draft report is included as Appendix V.
Copies of this report are also being sent to the IRS managers affected by the report
recommendation. Please contact me at (202) 622-6510 if you have questions or
Margaret E. Begg, Assistant Inspector General for Audit (Compliance and Enforcement
Operations), at (202) 622-8510.
                                                                                                2
                     Collection Actions on Abusive Tax Avoidance Transaction Cases
                     Are Generally Effective, but Measures to Evaluate Performance
                                           Results Are Needed




                                            Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 3
          The Collection Function Effectively Identifies and Takes Actions on
          Abusive Tax Avoidance Transaction Cases .................................................Page 3
          Measures Are Needed to Evaluate Program Performance Results ..............Page 6
                    Recommendation 1:..........................................................Page 7


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 8
          Appendix II – Major Contributors to This Report ........................................Page 11
          Appendix III – Report Distribution List .......................................................Page 12
          Appendix IV – Glossary of Terms................................................................Page 13
          Appendix V – Management’s Response to the Draft Report .......................Page 15
       Collection Actions on Abusive Tax Avoidance Transaction Cases
       Are Generally Effective, but Measures to Evaluate Performance
                             Results Are Needed




                       Abbreviations

ATAT             Abusive Tax Avoidance Transaction
IRS              Internal Revenue Service
                  Collection Actions on Abusive Tax Avoidance Transaction Cases
                  Are Generally Effective, but Measures to Evaluate Performance
                                        Results Are Needed




                                              Background

Abusive Tax Avoidance Transactions (ATAT)1 are transactions or schemes that reduce tax
liability by taking a tax position that is not supported by the Internal Revenue Code or by
manipulating the law in a way that is not consistent with its intent. If allowed to go on
unimpeded, abusive transactions could undermine voluntary compliance by reducing the level of
trust that responsible taxpayers have in the integrity of the tax system. According to estimates of
the revenue lost due to these schemes, the Federal Government annually loses billions of dollars.
Internal Revenue Service (IRS) management determined that the variety, size, and nature of tax
shelters require an organized approach to detection, deterrence, and enforcement so that the use
of abusive transactions can be stopped.
In March 2002, the IRS and the Department of the Treasury developed a strategy to identify and
deter promoters of abusive tax transactions. These efforts included:
    •    Vigorously enforcing the disclosure,2 registration,3 and list maintenance requirements4 for
         tax shelters.
    •    Identifying and notifying the public early about questionable transactions.
    •    Prioritizing the use of resources to identify promoters of tax shelters and abusive
         transactions.
As part of the overall strategy to deter abusive tax transactions, the IRS implemented the ATAT
Collection Program (the Program) to provide collection support during promoter investigations
and to aggressively pursue collection of penalties and additional tax assessments made in relation
to the abusive transactions. The collection of ATAT cases has evolved from tools and
techniques used by field revenue officers to resolve difficult cases. The taxpayers involved in
abusive transactions may employ multi-tiered business entities or trusts to hide or conceal assets



1
  See Appendix IV for a glossary of terms.
2
  26 U.S.C. Section 6011 (2003) requires that any person made liable for any taxes due as a result of income tax
regulations shall file an appropriate return or form as prescribed by law with the appropriate information as
requested on the return or form.
3
  26 U.S.C. Section 6111 (2003) requires that any tax shelter organizer shall register the tax shelter with the
Secretary of the Treasury not later than the day on which the first offering for sale of interests in such tax shelter
occurs.
4
  26 U.S.C. Section 6112 (2003) requires that any person who organizes any potentially abusive tax shelter, or sells
any interest in such a shelter, shall maintain a list identifying each person who was sold an interest in such shelter
and containing such other information as the Secretary of the Treasury may by regulations require.
                                                                                                               Page 1
                  Collection Actions on Abusive Tax Avoidance Transaction Cases
                  Are Generally Effective, but Measures to Evaluate Performance
                                        Results Are Needed



and income. Often, revenue officers may require assistance from the IRS Office of Chief
Counsel to litigate a case or provide advice in the pursuit of assets.
The Program is a component of the Collection Field function. As of December 31, 2008, the
Program had approximately 2,800 cases with a total assessed balance due of approximately
$4.3 billion. While this represents less than 2 percent of the Collection Field function’s
178,000 cases, it is about 19 percent of the total assessed balance of approximately $23.1 billion5
for the same time period.
This review was performed at IRS Small Business/Self-Employed Division Collection function
offices in New Carrollton, Maryland; Seattle, Washington; and field offices in
Glendale, Laguna Niguel, and San Bernardino, California; St. Louis, Missouri; and
Salt Lake City, Utah, during the period June 2008 through February 2009. We conducted this
performance audit in accordance with generally accepted government auditing standards. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit objective. We
believe that the evidence obtained provides a reasonable basis for our findings and conclusions
based on our audit objective. Detailed information on our audit objective, scope, and
methodology is presented in Appendix I. Major contributors to the report are listed in
Appendix II.




5
  Data for the Program were obtained based on the Treasury Inspector General for Tax Administration’s analysis of
the Integrated Collection System and Taxpayer Service and Return Processing Categorization file. We obtained the
information for the Collection Field function from IRS Collection Report 5000-2 (Taxpayer Delinquent Account
Cumulative Report).
                                                                                                          Page 2
                  Collection Actions on Abusive Tax Avoidance Transaction Cases
                  Are Generally Effective, but Measures to Evaluate Performance
                                        Results Are Needed




                                       Results of Review

The Collection Function Effectively Identifies and Takes Actions on
Abusive Tax Avoidance Transaction Cases
The Collection function’s role in the IRS’ATAT strategy is to promote future compliance of tax
laws, help ensure collectibility issues are addressed early in promoter investigations, and take
collection enforcement actions as early as allowable by the law. Our review showed that the
Program effectively pursues the collection of penalty and tax assessments. More specifically, the
Program:
    •    Participated and coordinated actions with the Examination function and other functions
         during promoter investigations.
    •    Identified and assigned high-priority ATAT promoter and participant cases.
    •    Generally complied with quality and timeliness standards.

Collection actions were coordinated with the Examination function and other
functions during promoter investigations
Participation and coordination with the Examination function, other functions, and the Criminal
Investigation Division during promoter investigations help to ensure that collectibility6 issues
such as the identification of assets and income sources are addressed early in the process, and
that the collection of assessments can be promptly taken. The participation of the Collection
function in the promoter investigation stage is on a case-by-case basis, with the Examination
function being responsible for obtaining Collection function input during any particular
investigation.
We selected a random sample of 30 of 322 promoter cases pending in the ATAT Collection
Program during the period May 1, 2007, through April 30, 2008. Our review showed that the
Program was available to assist in the promoter investigations. The ATAT Collection
Coordinators (generally ATAT Collection Program group managers) maintained working
relationships with the Examination function and were included in the routing of authorization
documents for promoter investigations.


6
  IRS guidance indicates that current collectibility should not be a consideration when determining whether to assert
a penalty under Internal Revenue Code Section 6700 or Internal Revenue Code Section 6701, unless exceptional
circumstances exist.
                                                                                                             Page 3
                  Collection Actions on Abusive Tax Avoidance Transaction Cases
                  Are Generally Effective, but Measures to Evaluate Performance
                                        Results Are Needed



As a means to communicate active promoter investigations, the Collection Policy function
obtains lists of active promoter cases from the Lead Development Center and provides these lists
to ATAT Collection coordinators for review. Our review of the active promoter list as of
June 14, 2007, showed Collection function involvement on 515 (69 percent) of 742 active
promoter investigations. Since Collection function involvement is on a case-by-case basis, this
relatively high volume of participation in promoter investigations indicates a high level of
coordination.

High-priority ATAT promoter and participant cases were properly identified and
assigned
The Collection function prioritized ATAT collection casework to ensure balanced enforcement
and to match Collection function priorities with Examination function strategies. ATAT
collection priorities are based on factors such as whether taxpayers were promoters of ATATs
and the dollar amount of the unpaid balance (tax, penalties, and interest) of participants.
To identify and assign ATAT collection casework, the Program relies on communication and
coordination by the ATAT Collection coordinators. The Collection Policy function obtains case
lists from the Lead Development Center and the Examination function, and provides these lists
to the ATAT Collection coordinators for review and action. These case lists include information
about promoter penalties assessed and closed participant examinations. For example, the Lead
Development Center’s semi-annual list of taxpayers assessed promoter penalties shows
cumulative information on penalties assessed. The Examination function’s quarterly list of
closed ATAT examinations (referred to as a Status 90 listing) shows closed examination cases
that were conducted using project codes reserved for ATAT examinations.
Our review showed that promoter penalties as well as additional tax assessments for participants
were effectively assigned for collection. Since Collection function case assignments are based
on priority considerations, our results indicated a relatively high case assignment rate.
Specifically, we:
    •   Reviewed 129 taxpayers who were assessed promoter penalties totaling over
        $31.9 million for the period May 1, 2007, through April 30, 2008. Our analysis showed
        that 95 percent of the cases, accounting for almost 98 percent of the dollars assessed, had
        been appropriately prioritized and assigned as warranted.7
    •   Reviewed 59 taxpayers who had total assessed balances over $100,000 totaling
        approximately $69.6 million8 from the July 30, 2008, Status 90 listing for the 2 Area


7
  We considered case assignments to be not warranted where taxpayers filed for an Appeal or Bankruptcy or where
the taxpayers’ accounts were previously determined to be not collectible, had an active installment agreement, or
had low-dollar penalty assessments.
8
  This includes tax, penalty, and interest for all tax periods related to these taxpayers.
                                                                                                          Page 4
                  Collection Actions on Abusive Tax Avoidance Transaction Cases
                  Are Generally Effective, but Measures to Evaluate Performance
                                        Results Are Needed



        Offices we selected for visitation. Our analysis showed that 93 percent of these cases,
        accounting for 99 percent of the dollars assessed, had been appropriately prioritized and
        assigned as warranted.9

Case actions generally complied with quality and timeliness standards
The Collection function uses the Embedded Quality Program to evaluate, measure, and report
organizational quality of casework. Case quality is evaluated using various elements10 to assess
both the quality and timeliness of case actions,11 and these elements are applicable to ATAT
cases.
To evaluate the quality and timeliness of case actions taken, we selected a statistically valid
sample of 42 cases based on a population of 830 ATAT collection cases closed between
May 1, 2007, and April 30, 2008.12 Using the Embedded Quality Program process, we
determined that the Program was generally complying with quality and timeliness standards.
Specifically, the Program was actively working ATAT cases using appropriate case actions such
as securing and verifying financial information, requesting payments and unfiled tax returns,
filing liens, and using other enforcement tools as necessary.
In our review of quality and timeliness of case actions, we used the same attributes and criteria as
the Embedded Quality Program. In our sample, 91 percent of the cases were timely for all
actions, and 99 percent of the cases were procedurally accurate for all actions. This compares
with 79 percent and 76 percent, respectively, for the National Quality Review System results for
the Collection Field function during Fiscal Year 2008. We noted that the occurrence of just one
untimely or procedurally inaccurate action in any case would cause the entire case to count as not
being timely or procedurally accurate. Because there are several possible actions in each case,
these results indicate a relatively high-quality score for these two categories.




9
  We considered case assignments to be not warranted where taxpayers filed for an Appeal, Bankruptcy, or
offer-in-compromise; or where the Examination function made no assessments related to the ATAT examination.
10
   The Embedded Quality Program process includes 35 attributes to monitor crucial aspects of organizational
performance. These attributes are grouped into five key embedded quality categories: Customer Accuracy,
Regulatory Accuracy, Procedural Accuracy, Professionalism, and Timeliness.
11
   The Treasury Inspector General for Tax Administration is currently conducting an audit of the Embedded Quality
Review Program. We utilized the Embedded Quality Program standards for our evaluation of case quality;
however, our review was not intended as an evaluation of the Embedded Quality Program.
12
   We selected our sample using a 90 percent confidence level, an expected error rate of 20 percent, and a precision
of ±10 percent, which resulted in a minimum sample size of 42 closed cases.
                                                                                                            Page 5
                  Collection Actions on Abusive Tax Avoidance Transaction Cases
                  Are Generally Effective, but Measures to Evaluate Performance
                                        Results Are Needed



Measures Are Needed to Evaluate Program Performance Results
The Government Accountability Office Standards for Internal Control in the Federal
Government13 recommends that managers compare actual performance to planned or expected
results throughout the organization and analyze significant differences. In addition, the
Government Accountability Office Executive Guide: Effectively Implementing the Government
Performance and Results Act14 explains that a combination of output and outcome measures is
appropriate for assessing performance when considering performance measures.
Output measures generally provide information about an undertaking of program actions, such as
the number of cases completed or the number of cases completed in a specified time period. For
example, an output measure for the ATAT Collection Program is case dispositions. The use of
outcome-oriented measures allows management to target problem areas, highlight successes,
evaluate alternatives, and determine if the program is achieving desired results.
Outcome-oriented measures show program results achieved on effectiveness, efficiency, or
impact. For example, an outcome measure for the ATAT Collection Program could include the
method of case disposition (i.e., fully paid, installment agreement, etc.).
However, the Program does not have measures available to provide an overall assessment of its
results. The Program does have inventory workload indicators for evaluating the staffing
resources needed that includes the number of cases in inventory, the number of direct staff hours
expended, and the number of case dispositions. A productivity measure, derived from the
number of direct staff hours divided by case dispositions, was also developed. However, these
indicators do not measure the overall results of the Program. Without measures to determine the
success of its activities, the IRS cannot effectively determine whether the Program is achieving
desired results, make appropriate changes to it if necessary, or communicate and educate the
public on the success of IRS collection activities taken to stop the use of abusive transactions.
ATAT Collection Program management had not implemented performance measures because
overall results are included as part of the Collection Field function program, and there was no
systemic process available for the identification and tracking of data specific to the Program. In
February 2007 and October 2008, the Collection Policy function initiated data research projects
to identify workload that resulted from Examination function ATAT efforts. We were advised
that research is expected to be completed by April 2009, and the Collection Policy function
would review the data to assess and develop additional program performance measures. The
tentative plans are to use historical information from Fiscal Year 2007 as a baseline and use
updated analysis for continued monitoring of the Program.




13
     GAO/AIMD-00-21.3.1, dated November 1999.
14
     GAO/GGD-96-118, dated June 1996.
                                                                                            Page 6
               Collection Actions on Abusive Tax Avoidance Transaction Cases
               Are Generally Effective, but Measures to Evaluate Performance
                                     Results Are Needed



Recommendation
Recommendation 1: The Director, Collection, Small Business/Self-Employed Division,
should ensure that program performance measures are developed to assess the success of the
ATAT Collection Program.
       Management’s Response: IRS management agreed with our recommendation. The
       Director, Collection Policy, Small Business/Self-Employed Division, and the Director,
       Planning and Analysis, Small Business/Self-Employed Division, will collaborate to
       identify appropriate ATAT Collection Program outcome measures that can be segregated
       from existing data collection programs. They will also identify Collection function
       ATAT-specific results measures and explore means to collect them.




                                                                                        Page 7
                    Collection Actions on Abusive Tax Avoidance Transaction Cases
                    Are Generally Effective, but Measures to Evaluate Performance
                                          Results Are Needed



                                                                                        Appendix I

            Detailed Objective, Scope, and Methodology

The overall objective of this review was to determine whether the Small Business/Self-Employed
Division ATAT Collection Program effectively and efficiently collects tax assessments and
penalties imposed against promoters and/or participants of ATATs.1 During the review, we
relied on data from the Audit Information Management System, the Integrated Collection
System, and the Taxpayer Service and Return Processing Categorization file. We evaluated the
reasonableness of the data through comparison with selected information from the Integrated
Data Retrieval System. We determined that the data were sufficiently reliable to meet our
objective. To accomplish the objective, we:
I.         Determined whether the Collection function’s early intervention activities with the
           Examination function are utilized to assist in the identification of assets and income
           sources.
           A. Identified Collection and Examination function management expectations for use of
              early intervention in promoter investigations.
           B. From the Integrated Collection System, selected a random sample of 30 of 322
              promoter cases pending in the Collection function during the period May 1, 2007,
              through April 30, 2008. We evaluated the collection case history to determine
              whether the Collection function was involved in an early intervention. We used a
              random sample to ensure that each case had an equal chance of being selected, which
              enabled us to obtain sufficient evidence to support our results.
           C. Identified 742 active promoter investigations from an IRS Lead Development Center
              list of active promoter investigations as of June 14, 2007. We determined collection
              case assignment for the active promoter investigations based on comparison of open
              and closed case information from the Integrated Collection System as of
              January 16, 2009. We chose this list to evaluate assignments due to the varying
              length of time required to conduct promoter investigations.
II.        Determined whether high-priority cases with unpaid ATAT-related assessments are
           appropriately assigned for collection.
           A. Discussed with Collection function management case assignment practices and
              methodologies used to assign collection priority to ATAT cases.


1
    See Appendix IV for a glossary of terms.
                                                                                                Page 8
                      Collection Actions on Abusive Tax Avoidance Transaction Cases
                      Are Generally Effective, but Measures to Evaluate Performance
                                            Results Are Needed



           B. Determined whether case assignment practices are effective to ensure that ATAT
              cases receive appropriate collection priority and case action.
                1. Discussed with ATAT Collection coordinators activities relating to coordination
                   efforts among the Collection function and other IRS functions, case identification
                   and transition from assessment to collection assignment, and assessment of case
                   collection priority.
                2. Identified guidance provided to examiners for seeking Collection function input.
           C. Determined whether alternative case identification methods are effectively utilized
              for case assignments.
                1. From the Lead Development Center, obtained a list of promoter penalties assessed
                   through November 30, 2008. We evaluated the collection assignments for all
                   129 promoter penalties assessed for the period of May 1, 2007, through
                   April 30, 2008. We selected this time period to evaluate the effectiveness of
                   current processes.
                2. Reviewed a quarterly list of cases closed by the Examination function (referred to
                   as a Status 90 listing) as of July 30, 2008. For the 2 Area Offices selected for our
                   onsite visitations, we reviewed all 59 taxpayers who had total assessed balances
                   over $100,000 totaling approximately $69.6 million.2 We evaluated whether the
                   cases were assigned for collection. We selected this date to evaluate current case
                   assignment practices. We limited the analysis to the two Area Offices as we
                   believed that was sufficient to meet the needs of our testing.
                3. From Audit Information Management System data, identified cases closed by the
                   Examination function during Fiscal Year 2007 which contained ATAT project
                   codes. We selected this time period to identify current trends in the case
                   assignment practices.
                     a. Compared cases identified with the Taxpayer Service and Return Processing
                        Categorization file to determine collection status and amounts owed as of
                        June 30, 2008.
                     b. Compared cases identified with Integrated Collection System data as of
                        January 16, 2009, to identify cases with collection activity to determine trends
                        in Collection function involvement.




2
    This includes tax, penalty, and interest for all tax periods related to these taxpayers.
                                                                                                 Page 9
              Collection Actions on Abusive Tax Avoidance Transaction Cases
              Are Generally Effective, but Measures to Evaluate Performance
                                    Results Are Needed



III.   Determined whether the Collection function takes timely and appropriate actions when
       working ATAT cases.
       A. Discussed with the Collection function the expectations for working ATAT cases and
          identified applicable quality and time standards for ATAT cases.
       B. Evaluated the quality and timeliness of case actions taken on a statistically valid
          sample of 42 of 830 Collection Field function cases closed between May 1, 2007, and
          April 30, 2008.
          1. For the purposes of our testing, we selected our population of cases from the
             Integrated Collection System entity records. We limited our population to closed
             cases that were established on the Integrated Collection System after
             March 31, 2003, contained a collection ATAT sub-case code, involved the
             collection of a tax delinquent account, and had tax periods associated with the
             entity record.
          2. We developed a statistically valid sampling plan using a 90 percent confidence
             level, an expected error rate of 20 percent, and a precision of ±10 percent, which
             resulted in a minimum sample size of 42 closed cases. A statistically valid
             sample was taken because we wanted to estimate the number of cases in the
             population with quality or timeliness issues. However, since our results showed
             that the overall quality of case actions was acceptable, we chose not to project the
             results of our review.
IV.    Determined whether performance measures adequately measure the success of the ATAT
       Collection Program.
       A. Discussed with Collection function management performance indicators required to
          measure the success of the ATAT Collection Program.
       B. Determined how IRS management uses and reports the ATAT performance measures.
       C. Determined management information used to evaluate similar Collection function
          programs.




                                                                                         Page 10
              Collection Actions on Abusive Tax Avoidance Transaction Cases
              Are Generally Effective, but Measures to Evaluate Performance
                                    Results Are Needed



                                                                             Appendix II

                 Major Contributors to This Report

Margaret E. Begg, Assistant Inspector General for Audit (Compliance and Enforcement
Operations)
Carl L. Aley, Director
Amy L. Coleman, Audit Manager
Darryl J. Roth, Lead Auditor
Christina M. Dreyer, Senior Auditor
Pillai Sittampalam, Senior Auditor




                                                                                      Page 11
              Collection Actions on Abusive Tax Avoidance Transaction Cases
              Are Generally Effective, but Measures to Evaluate Performance
                                    Results Are Needed



                                                                           Appendix III

                         Report Distribution List

Commissioner C
Office of the Commissioner Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Deputy Commissioner, Small Business/Self-Employed Division SE:S
Director, Collection, Small Business/Self-Employed Division SE:S:C
Director, Examination, Small Business/Self-Employed Division SE:S:E
Director, Collection Policy, Small Business/Self-Employed Division SE:S:C:CP
Director, Planning and Analysis, Small Business/Self-Employed Division SE:S:C:PA
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaison: Commissioner, Small Business/Self-Employed Division SE:S




                                                                                   Page 12
               Collection Actions on Abusive Tax Avoidance Transaction Cases
               Are Generally Effective, but Measures to Evaluate Performance
                                     Results Are Needed



                                                                                 Appendix IV

                                Glossary of Terms

Abusive Tax Avoidance Transactions – Transactions or schemes that reduce tax liability by
taking a tax position that is not supported by the Internal Revenue Code or by manipulating the
law in a way that is not consistent with its intent.
Area Office – A geographic organizational level used by IRS business units and offices to help
their specific types of taxpayers understand and comply with tax laws and issues.
Audit Information Management System – A computer system used by the Small
Business/Self-Employed Division Examination Operations function and others to control returns,
input assessments/adjustments to the Master File, and provide management reports.
Collection Field function – The unit in the Area Offices consisting of revenue officers who
handle personal contacts with taxpayers to collect delinquent accounts or secure unfiled returns.
Criminal Investigation Division – The IRS division that investigates potential criminal
violations of the Internal Revenue Code and related financial crimes.
Early Intervention – An exchange of information or coordination of efforts between the
Collection and Examination functions either during the promoter investigation or when a
deficiency is assessed and/or a penalty is asserted.
Embedded Quality Program – Embedded Quality is a measurement system for reporting
organizational quality performance and is comprised of two distinct systems: Embedded Quality
Review System and National Quality Review System. The Embedded Quality Review System
provides a structured context for evaluating employee performance. The National Quality
Review System provides independent collection review information from which management
may draw inferences regarding overall case quality for a given operational segment.
Examination function – The IRS function that examines tax returns to determine whether
taxpayers accurately report their tax liabilities.
Integrated Collection System – An information management system designed to improve
revenue collections by providing revenue officers access to the most current taxpayer
information, while in the field, using laptop computers for quicker case resolution and improved
customer service.
Integrated Data Retrieval System – IRS computer system capable of retrieving or updating
stored information; it works in conjunction with a taxpayer’s account records.


                                                                                          Page 13
               Collection Actions on Abusive Tax Avoidance Transaction Cases
               Are Generally Effective, but Measures to Evaluate Performance
                                     Results Are Needed



Lead Development Center – A function within the Small Business/Self-Employed Division that
provides for the centralized receipt and development of leads on abusive tax transactions used by
promoters and preparers. The Lead Development Center coordinates authorization of civil
investigations with the Criminal Investigation Division and with the IRS Office of Chief Counsel
on the recommendations for conducting civil investigations. Approved investigations are sent to
Compliance field offices where examiners contact the promoter and complete the investigation.
There is also a Lead Development Center within the Criminal Investigation Division whose
current role is predominantly to research investigative leads provided by the Criminal
Investigation Division field offices and fraud referrals that come from the Compliance functions.
This audit report refers only to the Lead Development Center in the Small Business/
Self-Employed Division.
National Quality Review System – A quality review process that provides independent
collection review information from which management may draw inferences regarding overall
case quality for a given operational segment.
Participant – Any and all persons who participated in the promotion; purchased a product,
service, or have an interest in a promotion; or received any material aid, assistance, or advice
with respect to the promotion.
Promoter – A person who organizes or assists in the organization of a partnership, trust,
investment plan, or any other entity or arrangement that is to be sold to a third party and is
designed to be used or is actually used by that third party in obtaining tax benefits not allowed by
the Internal Revenue Code.
Promoter Investigation – An evaluation to decide if the promoter is subject to penalties and
injunctive action as a result of his or her involvement in promoting an abusive tax avoidance
transaction.
Revenue Officer – An employee in the Collection Field function who attempts to contact
taxpayers and resolve collection matters that have not been resolved through notices sent by the
IRS campuses (formerly known as service centers) or the Automated Collection System.
Taxpayer Service and Return Processing Categorization file – A part of the Accounts
Receivable Dollar Inventory. These files are generated on a quarterly basis from both the
Individual Master File and Business Master File. The Individual Master File is the IRS database
that maintains transactions or records of individual tax accounts, and the Business Master File is
the IRS database that consists of Federal tax-related transactions and accounts for businesses.
These include employment taxes, income taxes on businesses, and excise taxes.




                                                                                            Page 14
   Collection Actions on Abusive Tax Avoidance Transaction Cases
   Are Generally Effective, but Measures to Evaluate Performance
                         Results Are Needed



                                                    Appendix V

Management’s Response to the Draft Report




                                                          Page 15
Collection Actions on Abusive Tax Avoidance Transaction Cases
Are Generally Effective, but Measures to Evaluate Performance
                      Results Are Needed




                                                       Page 16
